OFFICE OF INSPECTOR GENERAL


AUDIT OF
USAID/COLOMBIA’S
ALTERNATIVE
DEVELOPMENT PROGRAM
AUDIT REPORT NO.1-514-07-009-P
May 30, 2007




SAN SALVADOR, EL SALVADOR
                        Office of Inspector General




       May 30, 2007

       MEMORANDUM

       TO:                USAID/Colombia Director, Liliana Ayalde
                          USAID/Colombia Contracting Officer, Sunil Xavier

       FROM:              Acting Regional Inspector General/San Salvador, Darren Roman /s/

       SUBJECT:           Audit of USAID/Colombia’s Alternative Development Program (Report No.
                          1-514-07-009-P)


       This memorandum is our report on the subject audit. In finalizing the report, we carefully
       considered your comments on the draft report and we have included the Mission’s
       comments in their entirety in Appendix II.

       The report includes ten recommendations for your action. Based on the information
       provided in the Mission’s response to the draft report, management decisions for the
       recommendations can be recorded when the Mission has developed a firm plan of action,
       with timeframes, for implementing the recommendations. Determination of final action for
       the report recommendations will be made by the Audit Performance and Compliance
       Division (M/CFO/APC) upon completion of the actions planned by the Mission.

       I appreciate the cooperation and courtesy extended to my staff throughout the audit.




U.S. Agency for International Development
Regional Inspector General/San Salvador
Unit 3110; APO, AA 34023
Tel (503) 2501-2999 & 2524-2999
Fax (503) 2228-5459
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 3

Audit Objectives ................................................................................................................ 5

Audit Findings ................................................................................................................. 6

     Did USAID/Colombia’s Alternative Development Program activities
     achieve planned results? .......................................................................................... 6

          Implementation of Projects Was Slow ................................................................. 7

          Cost Guidelines for Licit Crops Are Needed ......................................................... 8

          Verification Arrangements Should Be Formalized................................................. 9

          Guidelines Needed for Social Infrastructure Projects.......................................... 10

          Cost Sharing Requirements Varied Widely Among Projects............................... 12

          Periodic Reviews of Reported Data Should be Performed ................................. 13

          Performance Targets Were Inconsistent............................................................. 14

     Did USAID/Colombia use performance-based contracting methods to the
     maximum extent possible in accordance with FAR Part 37.102? ............................. 16

          Performance-Based Contracting Should Be Used ............................................. 16

     Other Matter .............................................................................................................. 17

          Mission Should Comply with Forward
          Funding Guidelines ............................................................................................. 17

Evaluation of Management Comments ....................................................................... 19

Appendix I – Scope and Methodology ........................................................................ 19

Appendix II – Management Comments ....................................................................... 22
SUMMARY OF RESULTS
Alternative development plays a critical role in the counter-narcotics strategy being
pursued by the U.S. Government and the Government of Colombia. Alternative
development programs are intended to improve social and economic conditions in illicit
crop producing areas, thereby enabling small producers to voluntarily abandon illicit crop
production. USAID/Colombia’s alternative development program is carried out under
conditions of great insecurity. Armed guerilla and paramilitary groups control many of
the areas where the alternative development program is active, and limited physical
security continues to be the most significant obstacle to successful and timely
implementation of the program. (See page 3).

As part of its fiscal year 2007 audit plan, the Regional Inspector General/San Salvador
performed this audit to answer the following questions:

•   Did USAID/Colombia’s Alternative Development Program activities achieve planned
    results?

•   Did USAID/Colombia use performance-based contracting methods to the maximum
    extent possible in accordance with FAR Part 37.102?

With respect to the first question above, USAID/Colombia’s alternative development
program activities achieved planned results for all four of its main indicators in calendar
year 2005. In 2006, the program achieved results related to infrastructure projects and
job creation but fell short of targets for licit crops and the number of families that
benefited from alternative development activities. (See page 6.) The audit also
identified opportunities to improve program performance by speeding implementation of
program activities, developing guidance on the amounts that can be spent on cultivation
of licit crops, formalizing the arrangements for verifying voluntary eradication, developing
guidance on the types of infrastructure projects that can be financed, developing cost
sharing requirements, periodically reviewing the accuracy of information provided by
partners, and making the performance targets in the Mission’s Performance Monitoring
Plan, contracts, and work plans more consistent with one another. (See pages 7 to 16.)

With respect to the second question above, USAID/Colombia did not use performance-
based contracting methods to the maximum extent possible in accordance with FAR
Part 37.102. Instead, the Mission was using conventional “cost plus” contracts. (See
page 16.)

In addition, one other matter came to our attention during the course of the audit: the
Mission did not comply with forward funding requirements and exceeded its limit by $18
million as of September 30, 2006. (See page 17.)

The report contains 10 recommendations for USAID/Colombia as follows:

•   Improve timeliness of project implementation for productive projects (see page 8).

•   Establish guidelines for the amounts that the contractor can spend to support the
    production of licit crops (see page 9).


                                                                                          1
•   Execute a verification agreement with the Government of Colombia, which the
    Mission relies on to verify coca eradication before assistance is provided (see page
    10).

•   Establish clear boundaries on the types of social infrastructure projects that can be
    provided (see page 12).

•   Establish guidelines on the amounts that can be spent in individual communities
    (see page 12).

•   Establish guidelines on cost sharing requirements to make the program sustainable
    (see page 13).

•   Conduct periodic reviews of reported results to ensure that results reported by
    partners are accurate (see page 14).

•   Ensure that performance indicators and targets are consistent among program
    documents (see page 16).

•   Move toward performance-based contracting to better ensure that results are
    achieved (see page 17).

•   Reprogram excess obligations to activities that are more urgent by entering into
    additional commitments and/or reallocating funds among the sub-commitments/sub-
    obligations (see page 18).




                                                                                       2
BACKGROUND
The U.S. Government made a large commitment to fighting drug production throughout
the Andean Region with the inauguration of Plan Colombia, or the Andean Counterdrug
Initiative, in 2000. Plan Colombia was a $4 billion, six-year plan (2000-2005), to reduce
drug crop cultivation and improve human rights and the rule of law.

Within the counter-narcotics strategy of Plan Colombia, alternative development plays a
critical role. Alternative development is defined as a process designed to improve social
and economic conditions in illicit crop producing areas, thereby enabling small producers
to voluntarily abandon illicit crop production. It promotes growth and stability of a legal
economy based on a regional approach to sustainable production and marketing of
agricultural, forestry, and fishery products compatible with sound environmental
management. USAID/Colombia’s alternative development program is carried out under
conditions of great insecurity. Armed guerilla and paramilitary groups control many of
the areas where the alternative development program is active, and limited physical
security continues to be the most significant obstacle to successful and timely
implementation of the program. USAID/Colombia has carried out its alternative
development program primarily through three contracts.

The Colombia Alternative Development program, valued at $97.3 million, operated
between May 2001 and May 2006 and was implemented by Chemonics International
Inc. The program had two phases: the first focused primarily on eradication of illicit
crops and establishment of licit activities, and the second involved developing agro-
industry value chains designed to create a more sustainable regional economy.

In 2004, the Mission concluded that the widespread presence of this first contract was
not sustainable in the long-term. The Mission revised its strategy for greater cohesion,
geographic concentration, sustainability, and long-term impact by working in fewer, but
strategically more significant areas, of the country to develop and strengthen social
capital, state presence, and economic opportunities. USAID/Colombia’s revised strategy
for fiscal years 2006 through 2008 embraces a more systematic and targeted approach
that emphasizes prevention rather then a strategy utilizing the presence of illicit crops as
the sole criterion for defining the program’s geographic focus. In limiting the geographic
focus and selecting regions for intervention, the mission identified areas of the country
that (1) currently are under coca/poppy cultivation or that are vulnerable to illicit crop
production; (2) have significant economic potential; (3) have sufficient local and national
political will; and (4) have a high incidence of violence. USAID/Colombia believes that
its programs in alternative development, democracy, and humanitarian assistance can
and will be sustainable if activities are more heavily focused in areas of the country with
these characteristics. As a result, USAID selected a total of 6 corridors covering
approximately one third of the country, as illustrated in the map on page 4.

In October 2005, USAID awarded Associates in Rural Development a five-year contract,
totaling $190 million, to implement the Areas for Municipal-Level Alternative
Development Program (ADAM).             ADAM is a coordinated set of activities and
investments to create sustainable alternative development opportunities, improve local
governance, and help reestablish the presence of the State in rural areas threatened by
violence and internal conflict related to the cultivation and processing of illicit crops. The


                                                                                            3
foundation of an ADAM Municipal Initiative is the productive activity that provides
competitive economic alternatives (both on-farm and off-farm activities) to illicit crops.
The ADAM strategy is based on the premise that the key to sustainable economic
development is the creation of strong, effective linkages among the governmental
institutions, markets, and local producers (who, importantly, are also citizens and
community leaders). In this sense, ADAM aims to promote strategic linkages between
the state, markets, and producers. This contract is planned to end in October 2010.

Map 1: Alternative Development Program Geographic Coverage




   Source: USAID/Colombia



                                                                                        4
In December 2005, USAID/Colombia awarded Associates in Rural Development another
five-year contract, totaling $160 million, to implement the Additional Investment for
Sustainable Alternative Development Program (MIDAS).               MIDAS stimulates and
supports the development of sustainable businesses (agribusiness, forestry, and
small/medium business) that generate significant new sources of licit income for
producers and others involved in or have vulnerabilities to be involved in drug-related
activities. MIDAS is designed to react to private initiative by summoning private
investors to submit alternative development project proposals, selecting those that show
viable figures and sound business foundations, and offering a percentage of the total
investment through non-refundable grants intended mostly, to pay for training expenses
and technological improvements. MIDAS only funds a small percentage of selected
projects, leaving most of the financial effort to the actual investors, banking institutions,
government and other interested parties. This contract is planned to end in December
2010.

ADAM and MIDAS provide assistance to communities that are coca-free. USAID works
closely with Acción Social, the Government of Colombia’s counter-narcotics agency,
which is primarily responsible for verifying coca-free areas and ensuring continual
compliance with the Government of Colombia’s zero coca policy.

AUDIT OBJECTIVES
As part of its fiscal year 2007 audit plan, the Regional Inspector General/San Salvador
performed this audit to answer the following questions:

•   Did USAID/Colombia’s Alternative Development Program activities achieve planned
    results?

•   Did USAID/Colombia use performance-based contracting methods to the maximum
    extent possible in accordance with FAR Part 37.102?

Appendix I contains a discussion of the audit's scope and methodology, including a
limitation on the scope of the audit.




                                                                                           5
AUDIT FINDINGS
Did USAID/Colombia’s Alternative                          Development            Program
activities achieve planned results?
USAID/Colombia’s alternative development program activities achieved planned results
for all four of its main results indicators in calendar year 2005. In 2006, the program
achieved results related to infrastructure projects and job creation but fell short of targets
for licit crops and the number of families that benefited from alternative development
activities.

The following table shows the information on planned and actual results as of December
31, 2005 and December 31, 2006.

Table 1: Planned vs. Actual Results

 Main Indicators                       Calendar Year Ending        Calendar Year Ending
                                        December 31, 2005           December 31, 2006
                                        Target      Actual          Target      Actual

 Number of families benefiting          21,000         21,563         15,000       12,326
 from alternative development                         (103%)                       (83%)
 activities

 Hectares of licit crops supported      19,270         28,271         29,000       16,774
                                                      (147%)                       (58%)

 Number of full time equivalent        Indicator      Indicator       36,250       37,240
 jobs created                          added in       added in                     (103%)
                                         2006           2006
 Number of social and productive          40             46             20           85
 infrastructure projects                              (115%)                       (425%)

 Hectares of illicit crops                100           676          Indicator     Indicator
 eradicated                                           (676%)         dropped       dropped
                                                                    after 2005    after 2005

There were several reasons why planned results related to licit crops and families
benefiting from alternative development activities were not met in 2006. This was the
first year of implementation of two new contracts and ARD spent more time than
expected on start-up activities, designing a strategy, and organizing its administrative
and technical teams. Also, ARD moved into office space that USAID had warned was
unapproved. Several weeks later ARD had to terminate its lease and move into a new
building. The disruption caused by the move affected ARD’s program activities. In
addition, ARD had staffing problems such as the resignation of its Chief of Party. A new
Chief of Party arrived in October 2006, just two months before the end of the reporting
period. In addition, a lengthy subcontracting process, a delay in finalizing a standard
agreement to be signed with communities participating in the program, and difficulty in



                                                                                               6
identifying communities in Putumayo that were coca free all contributed to not meeting
results in 2006.

The following sections of the audit report discuss further why results were not met and
also address opportunities to improve program implementation and achievement of
program objectives.

Implementation of Projects Was Slow
Summary: Delivering assistance timely is a key to success. However, implementation
of ADAM and MIDAS has been slow. Under the MIDAS project, the average time from
receiving proposals from grantees or sub-contractors to the beginning of project
implementation was 16 months.1 Under the ADAM project, the average time from
signing agreements with municipalities to implementation was 6 months. Slow
implementation of program activities occurred because of startup problems associated
with the new contracts with ARD. As a result, some planned program results were not
met for calendar year 2006.

Delivering assistance timely is a key to success. However, implementation of MIDAS
and ADAM has been slow. Under the MIDAS project, the average time from receiving
proposals from grantees or sub-contractors to implementation was 16 months. Under
the ADAM project, the average time from signing agreements with municipalities to
implementation was 6 months.

The business development model for MIDAS began with receiving proposals from
potential grantees or sub-contractors who respond to requests for business plans. Once
the proposals were submitted, the MIDAS team screened, reviewed, assessed, and
developed the project for the grantee or sub-contractor. Once that process was
completed, the grant or sub-contract was signed and implementation began shortly after.
The average time the project took to sign grant agreements from the time the proposals
were received was 13 months. The average time the project took to implement the
activities (actual planting of crops) from the time the grants or sub-contracts were signed
was 3 months. Therefore, the entire process took on average 16 months before
implementation began.

Under the ADAM project, agreements between the Government of Colombia and the
municipalities and communities were signed before actual planting began. Since the
ADAM project was just underway, we reviewed all seven active projects that were being
implemented or were still awaiting review at the end of our audit. The average time from
signing agreements with municipalities to implementation (or to the end of our audit, for
those projects still awaiting review) was 6 months.

Slow implementation was because of start-up problems associated with the new
contracts with ARD. Also, a delay in finalizing agreements with the Government of
Colombia caused a delay in implementation because actual planting of crops could not
be done until agreements with communities were signed. As a result, the mission only
1
    We reviewed documentation for all 33 projects under the Colombia Agribusiness Partnership
    Program (CAPP) previously implemented by Chemonics and currently inherited by ARD under
    the MIDAS project. No other projects were underway at the time of our audit.



                                                                                           7
achieved 58 percent of the targeted hectares of licit crops supported and 83 percent of
the targeted number of families benefiting from alternative development activities in
calendar year 2006.

      Recommendation No. 1: We recommend that USAID/Colombia require
      Associates in Rural Development to develop an action plan to shorten the time it
      takes for implementation to begin.

Cost Guidelines for
Licit Crops Are Needed
    Summary: According to Acción Social officials, the average investment for one
    hectare of licit crops (average includes all crops such as cacao, palm, coffee, etc.)
    financed by the Government of Colombia is $2,130. However, the average cost per
    hectare of licit crops financed under USAID/Colombia’s alternative development
    program was $4,178, with costs per hectare ranging from $1,268 to $59,101. The
    Mission focused on other priorities such as speeding implementation of the large
    contracts that were signed in 2005 and so did not establish cost guidelines for licit
    crop activities. Without establishing guidelines on how much to spend in each
    community, the program cannot ensure that sufficient funds will be available to meet
    program goals or that costs are commensurate with the results achieved. Also,
    without monitoring the efficiencies of the program, the Mission would not be able to
    determine the effectiveness and efficiencies of the program and of its contractors.

According to Acción Social (the Government of Colombia’s agency responsible for
alternative development) officials, the average investment for one hectare of licit crop
(average includes crops such as cacao, palm, coffee, etc.) is $2,130.2 However, the
average cost per hectare under USAID’s Colombia’s alternative development program
was $4,178, with costs per hectare ranging from $1,268 to $59,101. Table 2 lists the
investment per hectare for the projects we reviewed.3

Table 2: Investments per Hectare of Licit Crops

    Department         Municipalities             Amount        Hectares of     Investment
                                                 Invested       Licit Crops     per Hectare
    Huila         La Plata, Nataga,                 $282,681             223            $1,268
                  Algeciras, Teruel,
                  Palermo, Tello, Baraya,
                  Colombia.

2
    The mix and geographic location of crops financed by the Government of Colombia may not be
    the same as those financed by USAID. However, the comparison is indicative of at least a
    potential problem since the USAID average cost is almost twice the Government of Colombia’s
    cost.
3
    We reviewed a total of 10 projects under the Colombia Alternative Development (CAD) project,
    implemented by Chemonics, which were completed in calendar years 2005 and 2006. Some of
    these projects were inherited by Associates in Rural Development when it was awarded the
    ADAM and MIDAS contracts. We did not review any current projects under ADAM or MIDAS
    because implementation is still underway.




                                                                                              8
 Department         Municipalities             Amount       Hectares of   Investment
                                              Invested      Licit Crops   per Hectare
 Caqueta       Municipios de San Jose          $4,059,733         1,866         $2,175
               de Fragua, Albania,
               Curillo, Solita, Valparaiso,
               y Solano
 Putumayo      Mocoa, Orito, Pto Asis,         $1,627,334           271         $6,005
               Pto Caicedo, Valle del
               Guamuez y villa Garzon
 Putumayo      Villagarzón                      $338,694             54         $6,272
 Cauca         Patía, Balboa                   $3,105,081           214        $14,510
 Putumayo      Villagarzón                      $395,244             26        $15,202
 Putumayo      Valle del Guamuez y San          $438,782             20        $21,939
               Miguel
 Putumayo      Villagarzón y Puerto             $445,997             19        $23,474
               Caicedo
 Putumayo      Mocoa y Pto Guzmán               $452,095             14        $32,293
 Cauca         Patía                            $177,304              3        $59,101

The Mission had not focused on establishing cost guidelines. Without establishing
guidelines on how much to spend in each community, the program cannot reasonably
ensure that sufficient funds will be available to meet program goals or that costs are
commensurate with the results achieved. Standards on how much to spend per hectare
of a licit crop should be established to ensure that implementing partners’ costs are
comparable in similar circumstances.

   Recommendation No. 2: We recommend that USAID/Colombia establish
   guidelines on investment per hectare of licit crop and ensure that the
   implementing partners adhere to those standards by notifying them in writing or
   by modifying their contracts.

Verification Arrangements
Should Be Formalized

Summary: The Mission has recognized the need to obtain a formal verification
agreement with Acción Social for USAID’s alternative development activities, since the
success of the alternative development program is dependent on ensuring that the
program beneficiaries have no illicit crops. However, the program did not have a formal
agreement with Acción Social to regularly follow up with program beneficiaries to
ensure that they comply with the policy. This occurred because USAID previously was
relying mainly on assisted municipalities and organizations to monitor their own
residents and members. Without formal monitoring, there is a high risk that some
beneficiaries will not abide by the zero illicit crops policy.

The Colombian Government has a “zero illicit crops” policy in that beneficiaries of Plan
Colombia assistance are to be free of illicit crops. As part of Plan Colombia,
USAID/Colombia’s alternative development program has adopted the same policy. The
Mission has recognized the need to obtain a formal verification agreement with Acción
Social for USAID’s alternative development activities.




                                                                                        9
Although Acción Social has implemented a verification program for its own alternative
development program (called the familias bosques program), it has not implemented a
verification program for USAID’s alternative development program. Instead, USAID’s
alternative development program principally relied on municipal and local governments
and organizations receiving direct assistance to monitor themselves and their individual
residents/members.

At the time of the audit fieldwork, the Mission was working with Acción Social to develop
verification protocols similar to those of the familias bosques program. Acción Social’s
plan is to initially go into the area to verify that there is no coca, and then to periodically
go back to verify compliance.

The Mission needs to enter into a firm verification agreement and plan that spells out
procedures and schedules for pre-verification and post-verification. The agreement
should also specify requirements for reporting on the results of the verifications, and
steps to be taken if illicit crops are found.

Without a formal verification program with the Government of Colombia, there is no
assurance that Acción Social will cover the areas in which USAID is working. In
addition, there is a high risk that some beneficiaries will not comply with the zero illicit
crop policy. This could give current and future beneficiaries the impression that the
program is not serious about ensuring compliance with the no illicit crop policy. In fact,
there have been recent reports that some beneficiaries are not complying with the policy
(nine families in Tulmalco were reported to have coca in the areas that were claimed to
be coca free).

   Recommendation No. 3: We recommend that USAID/Colombia enter into a
   formal verification agreement and plan with Acción Social that specifically
   addresses (1) the areas in which USAID is working and includes a schedule of
   verification to be carried out by Acción Social and reported to USAID, and (2)
   actions to be taken if coca is found.

Guidelines Needed for Social
Infrastructure Projects
Summary: The program’s strategic objective is to expand economic and social
alternatives to illicit crop production.       However, the program financed some
infrastructure projects that met recreational and/or aesthetic needs but did not
contribute to the program goal of developing licit economic activities. The program
financed the construction of recreational/sports facilities and made improvements to
mayoral offices totaling $511,540. In addition, the program did not establish cost
guidelines or limits for social infrastructure projects and financed projects that ranged
from $638 to $2.4 million. The program did not establish clear boundaries on the types
of infrastructure projects that contributed to the program goal of generating licit
economic activities and did not establish limits or standards on how much to spend in a
community. As a result, program funds were used for purposes that did not meet basic
community needs or contribute to sustainable development activities and economic
growth. Also, not limiting the benefits or establishing standards for how much to invest
per community may limit the program’s efficiency and ultimately its effectiveness, since
there is a risk that fewer resources will be available to pursue program objectives.



                                                                                            10
Large differences in the amounts spent in individual communities may also contribute to
perceptions of favoritism or unfairness.

The program’s strategic objective is to expand economic and social alternatives to illicit
crop production. The program helps municipalities and communities develop basic
social and productive infrastructure to meet community needs. Specifically, these
projects are to (1) help provide needed infrastructure; (2) help establish a strengthened
state presence at the local level; and (3) help resolve basic local problems and stimulate
economic growth. USAID/Colombia typically finances basic infrastructure projects such
as schools, health centers, potable water and sanitation facilities, electric connections,
etc., for communities or groups within communities who participate in the program.

However, the program also financed some infrastructure projects that met recreational
and/or aesthetic needs but did not contribute to the program goal of developing licit
economic activities. As shown below, the program financed the construction of
recreational/sports facilities and made improvements to mayoral offices totaling
$511,540.

Table 3: Projects Financed by USAID That Do Not Contribute to Licit Economic
Activities

    Type of Project                 Number of          Total
                                     Projects         Amount
    Recreational/Sports Facility              18       $419,805

    Mayoral Offices                            5         $91,735

    Total                                     23        $511,540

The program did not establish clear boundaries on the types of infrastructure works that
contributed to the program goal of generating licit economic activities. As a result, the
program spent $511,540 for purposes that did not meet basic community needs or
contribute to sustainable development activities or economic growth.

In addition, the Mission did not establish guidelines for how much could be spent in a
single community or group within a community and financed projects that ranged from
$638 to $2,369,621. The Mission plans to provide assistance to approximately 100
municipalities under its alternative development project. To ensure that funds will be
available to all planned municipalities, the Mission should establish cost guidelines on
social infrastructure projects in each community. Below is a table of the investments
made by USAID for the 686 projects we reviewed:4

Table 4: Size of Infrastructure Investments Financed by USAID

    Range of Investments                        Number of
                                                 Projects

4
    We reviewed documentation pertaining to all 686 projects implemented by Chemonics, U.S.
    Army Corps of Engineers, and ARD (including projects that are planned but not yet
    implemented by ARD).



                                                                                        11
 Range of Investments                           Number of
                                                 Projects
 $100,000 and below                                    643
 $100,001 to $500,000                                   37
 $500,001 and above                                       6
 Total                                                 686

The Mission did not establish standards or limits on its social infrastructure projects
because the Mission was focused on other priorities such as implementing the program.
Not limiting the benefits or establishing standards for how much to invest per community
limits the program’s efficiency and ultimately its effectiveness, since there is a higher risk
that fewer resources will be available to pursue program objectives. It may also
contribute to perceptions of favoritism or unfairness among municipalities.

   Recommendation No. 4: We recommend that USAID/Colombia (a) establish
   clear boundaries on the types of infrastructure works that contribute to economic
   growth or meet community basic needs and therefore would be permissible
   under the program and (b) provide this guidance to its implementing partners.

   Recommendation No. 5: We recommend that USAID/Colombia establish limits
   or standards on the amounts that can be invested in each community for social
   infrastructure projects.

Cost Sharing Requirements Varied
Widely Among Projects
 Summary: The Mission considers cost sharing to be of great importance to the
 program’s sustainability.     However, cost sharing contributions made by the
 Government of Colombia or local entities varied from 0 percent to 89 percent. This
 occurred because the program did not establish minimum or standard contribution
 requirements for the communities. The contributions made by the communities varied
 among communities, depending on the negotiations that took place between the
 contractor and community leaders. Without establishing limits or standards on how
 much a community should contribute, the program could leave impressions of
 favoritism towards certain farmers. Also, it could result in a lack of sustainability or
 commitment in those communities that contribute little or nothing.

The Mission considers cost sharing to be of great importance to the program’s
sustainability. However, cost sharing contributions varied considerably as shown in
Table 5 below.

Table 5: Cost Sharing Contributions

 Percentage of Total Cost        Number of
                                  Projects
 0                                      302
 1-50                                   292
 51-89                                   92
 Total Projects                         686



                                                                                           12
This wide variation occurred because the program did not establish minimum or
standard contribution requirements from the communities. The contributions made by
the communities varied from one community to the other depending on the negotiations
that took place between the contractor negotiators and community leaders.

Without standards for cost sharing contributions, perceptions of favoritism may result.
Also, a lack of cost sharing could result in a lack of sustainability or commitment in those
communities that contributed little or nothing.

    Recommendation No. 6: We recommend that USAID/Colombia establish
    guidelines on cost sharing requirements.

Periodic Reviews of Reported
Data Should be Performed
Summary: USAID guidance suggests that periodic data quality reviews be completed to
ensure completeness, accuracy, and consistency. Additionally, an independent data
quality assessment performed in 2005 recommended that the Mission establish a
system to periodically verify results reported by its partners. However, the Mission has
not periodically reviewed the quality of data reported by partners because the Mission
had other priorities such as focusing on the start-up of the large contracts with ARD. As
a result of not performing periodic quality reviews of the data collected from partners,
reported results may be inaccurate. Additionally, decision makers who rely on the
performance data reported to them could make incorrect conclusions on the progress of
the activities and make incorrect decisions as to how to utilize their limited resources
most effectively.

USAID’s Automated Directives System (ADS) 203.3.5.2 states that the Operating Unit
and the Strategic Objective Team should be aware of the strengths and weaknesses of
their data and to what extent the data can be trusted to influence management
decisions. Additionally, USAID’s Performance Management Toolkit supplementary
guidance document states that the goal to assessing data from implementing partners
and secondary sources is to be aware of the data strengths and weaknesses and the
extent to which data can be trusted when making management decisions and reporting.
It also states that a practical approach to planning data quality assessments includes an
initial data quality assessment and periodic quality reviews for completeness, accuracy,
and consistency.

Additionally, an independent data quality assessment performed in 2005 found some
data quality problems related to some of the main indicators used under the alternative
development program and recommended that the Mission establish a system to
periodically verify results reported by its partners. For example, some problems
identified by the independent data assessment included the following:

•   The partners did not have common criteria or definitions to report on hectares of illicit
    crops manually eradicated.

•   Regarding the indicator on number of infrastructure projects completed, partners
    used different criteria to report on infrastructure projects. For some partners, the
    number of infrastructure projects was counted based on purchase orders. However,


                                                                                          13
    this caused double counting of projects completed when the projects were executed
    in several stages and, therefore, generated several purchase orders. In addition,
    some partners reported projects completed when the third payment was made, and
    others reported them as completed when 80 percent of the work was done.

•   There was a possibility of double counting the “number of families benefiting from
    alternative development activities” when a family benefited from two different
    programs executed by different partners and/or not counting beneficiaries from social
    infrastructure projects. In addition, it was not clear what methods and sources were
    used to determine the number of families who benefited from an infrastructure
    project.

The Mission has not periodically reviewed the quality of data reported by partners
because the Mission had other priorities such as focusing on the start up of the large
contracts with ARD.

Data quality assessments and periodic verifications help ensure that consistent and
reliable data is being collected for management decision making purposes as well as for
reporting purposes. With data quality assurances, decision makers may avoid making
wrong conclusions regarding the performance of their programs.

    Recommendation No. 7: We recommend that USAID/Colombia develop               and
    implement a system to help ensure that the existing requirement in ADS       203
    which requires its Alternative Development Office to periodically sample     and
    verify its implementing partners’ data for completeness, accuracy,           and
    consistency is met.

Performance Targets Were Inconsistent
Summary: According to guidance in USAID’s Automated Directives System (ADS),
performance indicators and targets must be established so that program performance
can be measured. Performance monitoring plans (PMPs) should be regularly updated
with new performance information to track and monitor results achieved or not achieved
as planned. However, the performance targets established for USAID/Colombia’s
alternative program activities were inconsistently described in different program
documents. For example, the implementing partner’s contracts and work plans did not
require reporting on the same indicators or targets, and the PMP targets have not been
established for program years 2005 through 2010. USAID/Colombia focused on rapidly
scaling up alternative development activities and did not devote sufficient effort to
ensuring that program performance targets were expressed consistently.
Inconsistencies in the performance targets reduce their usefulness and make it difficult
to assess progress under the program.

According to USAID’s Automated Directives System (ADS) 203, performance indicators
and targets must be established so that program performance can be measured.
Performance management plans should be regularly updated with new performance
information to track and monitor results achieved or not achieved as planned. Beyond
what is specifically stated in the ADS, it is obviously important to the success of any
program that program performance indicators and targets be unambiguous and
expressed consistently.


                                                                                       14
However, the performance targets established for USAID/Colombia’s alternative
development program activities were expressed inconsistently in contracts and work
plans. Under the ADAM project, ARD’s contract did not have an indicator for sales of
licit production and did not have targets for the indicator number of social and productive
infrastructure projects, even though they were required to report on these indicators in
the work plans and progress reports. Also, ARD was required to report on the number of
full time equivalent jobs in the work plans and progress reports, and had established
targets for this indicator in the work plans and progress reports, but these targets were
not formally established in the contract.

Under the MIDAS project, the indicators and targets were also not consistent between
ARD’s contract and its work plan or progress reports. For the performance indicator,
“sales of licit production,” there were no targets established in the contract and it did not
even appear in the work plan or progress reports.

In addition, the Mission’s PMP does not include any indicators or targets for program
years 2006 through 2010.

The following table summarizes the inconsistencies among program documents:

Table 6: Performance Targets for Life of Project (LOP) 2006 through 2010

    PMP Performance             PMP             ADAM LOP Targets              MIDAS LOP Targets
       Indicators              Targets

                                              Target in      Target in      Target in      Target in
                                                ARD         ARD Work          ARD         ARD Work
                                              Contract         Plan/        Contract         Plan
                                                            Progress
                                                             Reports
Number of families            Not included        49,978         51,633        441,600        624,607
benefiting from alternative
development activities

Hectares of licit crops       Not included       156,365       156,952         463,750        217,257
supported

Number of full time           Not included   Not included        70,521        177,000        277,784
equivalent jobs created

Sales of licit production     Not included   Not included   $342 Million   Not included   Not included


Number of social and          Not included   Not included           376             16             12
productive infrastructure
projects


USAID/Colombia focused on rapidly scaling up alternative development activities and
did not devote sufficient effort to ensuring that program performance targets were
expressed consistently. Inconsistencies in the performance targets reduce their
usefulness and make it difficult to assess progress under the program.




                                                                                                    15
   Recommendation No. 8: We recommend that USAID/Colombia (a) ensure that
   performance indicators and their corresponding targets are developed annually
   and are consistent among the various program documents; and (b) modify
   implementing partner contracts to reflect the same indicators and corresponding
   targets.

Did USAID/Colombia use performance-based contracting
methods to the maximum extent possible in accordance with
FAR Part 37.102?
USAID/Colombia did not use performance-based contracting methods to the maximum
extent possible in accordance with FAR Part 37.102. The following section discusses
this issue.

Performance-Based Contracting
Should Be Used
Summary: According to FAR Subpart 37.102, performance-based contracting is the
preferred method for acquiring services and must be used to the maximum extent
practicable. However, the two main contracts under the alternative development
program, ADAM and MIDAS, totaling $350 million, were not performance-based type
contracts. According to USAID/Colombia’s Contracting Officer, although performance-
based contracting is the preferred method of contracting, it is not commonly used by
USAID missions and the Mission argued that the existing contracts were a variation of
performance-based contracting. Without performance incentives/penalties built into the
contracts, there is a high level of risk that program objectives will not be met.

According to FAR Subpart 37.102, performance-based contracting is the preferred
method for acquiring services and must be used to the maximum extent practicable.
FAR Subpart 37.601 defines performance-based contracting as “a method intended to
ensure that required performance quality levels are achieved and that total payment is
related to the degree that services performed or outcomes achieved meet contract
standards. Performance-based contracts or task orders (1) describe the requirements in
terms of results rather than the methods of performance of the work; (2) use measurable
performance standards (i.e. in terms of quality, timeliness, quantity) and quality
assurance surveillance plans; (3) specify procedures for reductions of fee or for
reductions to the price of fixed-priced contract when services are not performed or do
not meet contract requirements; and (4) include performance incentives where
appropriate.”

However, the two main contracts under the alternative development program, ADAM
and MIDAS, totaling $350 million, were not performance-based type contracts. The
work plans included a description of desired performance, including performance
indicators and targets; however, all payments were based solely on level of effort rather
than performance.

According to USAID/Colombia’s Contracting Officer, although performance-based
contracting is a preferred method of contracting, it is not commonly used by USAID
missions. The Mission argued that the current method used is a “hybrid” performance-



                                                                                      16
based contract because the contracts and the work plans have indicators and targets.
We disagree with this characterization; since there were no incentives or penalties
related to results, the Mission was simply using conventional “cost plus” contracts.

The Mission recognizes the need to move towards a performance based contracting
method in light of the fact that the prime contractor, ARD, did not meet its planned
results for 2006 under ADAM and MIDAS. The Mission needs to move toward providing
the contractor with incentives for meeting targets and penalties or reductions in fee for
not meeting targets. Without performance incentives/penalties built into the contracts,
there is a high level of risk that program objectives will not be met.

   Recommendation No. 9: We recommend that USAID/Colombia amend its
   contracts with Associates in Rural Development to include more performance-
   based elements such as adding incentives for meeting goals, structuring
   payment based on performance, and specifying penalties or reductions in fee for
   not meeting results.

Other Matter
One other matter came to our attention during the course of the audit that requires
corrective action by USAID/Colombia. Specifically, obligations to the alternative
development strategic objective agreement did not comply with USAID forward funding
requirements.

Mission Should Comply with
Forward Funding Guidelines
 Summary: USAID policy states that missions should not forward fund obligations for
 more than 12 months beyond the end of the fiscal year in which the obligations take
 place. However, based on expected expenditures for 2007, the Mission exceeded this
 requirement for its alternative development strategic objective agreement by at least
 $65 million as of September 30, 2006. This occurred because of delays in program
 implementation and overly optimistic expenditure projections. As a result, funds that
 could have been used to fund more pressing needs elsewhere remain idle.
 USAID/Colombia should reprogram excess obligations totaling $18,018,502 to activities
 that are more urgent.

ADS Section 602.3.2 states that program managers must not forward fund obligations
for more than 12 months beyond the end of the fiscal year in which the obligations take
place. Since most obligations occur in the last half of the fiscal year, the upper limit of
pipelines normally is not expected to exceed 18 months of anticipated expenditures.
The upper limit is obtained by adding 12 months to the number of months remaining in
the fiscal year after the obligation is made.

However, the Mission exceeded these guidelines for its alternative development SOAG
as of September 30, 2006 by at least $65 million. This included $47 million that was
obligated from fiscal years 1996 through 2005 but not expended as of September 30,
2006, plus $18,018,502 million in additional obligations during FY 2006 that the Mission
does not expect to be able to spend during FY 2007.



                                                                                        17
The main reason for excess obligations was overly optimistic expenditure projections
combined with implementation delays. For example, the expenditures for the MIDAS
and ADAM contracts were less than expected because of delays in entering into sub-
agreements. In addition, unneeded obligations under some agreements that have
ended have not yet been reprogrammed and so could not be used.

Therefore, funds that could have been used by USAID to fund activities during the
current fiscal year remain idle.

   Recommendation No. 10: We recommend that USAID/Colombia reprogram
   excess obligations totaling $18,018,502 to activities that are more urgent by
   entering into additional commitments and/or reallocating funds among the sub-
   commitments/sub-obligations.




                                                                                   18
EVALUATION OF
MANAGEMENT COMMENTS
USAID/Colombia generally agreed with the findings and recommendations in our draft
audit report. The Mission plans to implement Recommendation Nos. 1 through 8 and a
management decision can be reached on these recommendations when
USAID/Colombia provides target dates for implementing the recommendations.

For Recommendation No. 9 on including more performance-based elements to the
contracts with Associates in Rural Development, the Mission has agreed to do the
following: (1) reduce the five-year contracts to three-year contracts with two one year
options to extend, (2) prepare performance evaluations on the contractor to motivate
performance, and (3) modify the contracts to firm-fixed price on some deliverables.
Although these actions help the Mission move towards performance-based contracting,
we will consider that a management decision has been reached for this recommendation
when the Mission provides additional information and target dates for the following: (1)
additional information on its plans for firm-fixed price on some deliverables, and (2) plan
to reduce the contractor’s fixed fee if the contractor does not meet its targets.

For Recommendation No. 10 on reprogramming excess obligations totaling
$18,018,502, the Mission stated that although it agrees with the spirit of the
recommendation, newly-developed forecasts of the partners’ show that all funds on hand
and to be received in FY 2007 and FY 2008 will be needed to fund the operations of the
related partners. Thus, no funds are to be reprogrammed at this time. While we
acknowledge the Mission’s comments, the comments do not address how the Mission
will comply with the Agency’s forward funding guidelines to not forward fund obligations
for more than 12 months beyond the end of the fiscal year in which the obligation takes
place. Therefore, a management decision will be reached for Recommendation No. 10
when USAID/Colombia has developed a firm plan of action on reprogramming the
excess obligations.

Mission comments in their entirety are presented in Appendix II.




                                                                                        19
                                                                           APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/San Salvador conducted this audit in accordance with
generally accepted government auditing standards. Fieldwork for this audit was
performed in Colombia from January 30, 2007 to March 6, 2007.

As part of its fiscal year 2007 audit plan, the Regional Inspector General/San Salvador
performed this audit to answer the following questions: (1) Did USAID/Colombia’s
Alternative Development Program activities achieve planned results? and (2) Did
USAID/Colombia use performance-based contracting methods to the maximum extent
possible in accordance with FAR Part 37.102?

The audit was subject to a scope limitation in that security conditions in the areas
covered by the program did not permit us to perform site visits to observe program
activities or interview beneficiaries.

In planning and performing the audit, we reviewed and assessed the effectiveness of
USAID/Colombia management controls related to the Alternative Development Program.
The significant USAID/Colombia controls identified included preparing a performance
monitoring plan, reviewing contractor performance and financial reports, conducting site
visits, and maintaining regular contact with the contractor.

The audit primarily covered the alternative development activities implemented by
USAID/Colombia’s prime contractors for the period from January 1, 2005 through
December 31, 2006. The first main contract, implemented from May 2001 through May
2006, was managed by Chemonics International Inc. for $97.3 million. As of December
31, 2006, $96.4 million had been expended on the contract. The second main contract
(for ADAM activities), signed in October 2005, is being implemented by Associates in
Rural Development for a total of $190 million for five years. As of December 31, 2006,
$20 million had been obligated and $13 million had been expended on the contract. The
third main contract (for MIDAS activities), signed in December 2005, is also being
implemented by Associates in Rural Development for a total of $160 million for five
years. As of December 31, 2006, $24.2 million had been obligated and $10.5 million
had been expended on the contract.

Methodology
To answer the first question, we traced results reported by the Mission to quarterly
reports submitted by the implementing partners. We reviewed USAID/Colombia’s
performance monitoring plan, strategic plan, primary contracts, work plans, and progress
reports. We interviewed the contracting officer, alternative development monitoring and
evaluation specialist, and other alternative development program team members. We
also interviewed officials from Associates in Rural Development, Chemonics
International Inc., United Nations, Government of Colombia’s Acción Social, and the
State Department’s Narcotics Affairs Section.




                                                                                     20
                                                                             APPENDIX I


In addition, we analyzed all 686 social infrastructure projects to determine the nature of
the project, amount of the project, and cost sharing contributions made by the
Government of Colombia and other local entities for each project. We reviewed all 10
projects from the Colombia Alternative Development (CAD) project implemented by
Chemonics that were completed in calendar years 2005 and 2006. We reviewed all 33
projects under MIDAS which had been inherited from the Colombia Agribusiness
Partnership Program (CAPP) and all 7 active projects under ADAM to determine when
implementation began. We also reviewed the targets established for the main indicators
to determine consistency among program documents.

To answer the second question, we interviewed the contracting officer and other mission
officials. We reviewed the requirements set forth in FAR Part 37.102 and compared
them to the two main contracts, ADAM and MIDAS, implemented by Associates in Rural
Development to determine compliance.




                                                                                       21
                                                                                            APPENDIX II



MANAGEMENT COMMENTS
MEMORANDUM                                                              May 8, 2007

To:               Tim Cox, USAID Regional Inspector General, San Salvador

From:             Liliana Ayalde, USAID/Colombia Mission Director

Subject:          Audit of USAID/Colombia’s Alternative Development Program (RIG Report No. 1-514-
                  07-00X-P): Mission Response to Audit Report Recommendations

Background:
The subject audit was conducted by Regional Inspector General (RIG) personnel in February 2007. The
Mission wishes to thank the RIG team for the cooperation and effort made during the audit. This report
represents the first full portfolio-wide audit that had been performed on the program during either of the
Plan Colombia phases since 2000. Its findings are critically important to continued successful
implementation of alternative development initiatives in this important U.S. foreign policy country and in
continuing to enhance the excellent relationship with the Government of Colombia. As expressed during
the initial meeting with the audit team in Bogotá, USAID/Colombia sees this audit as an opportunity to
learn from past experiences, to validate or modify current portfolio reform efforts, and generally to enhance
the program’s effectiveness during the coming years.

Mission Response:
Overall, it is the Mission’s opinion that the audit team’s recommendations are sound and the team
displayed an sufficient understanding of implementation challenges associated with operating in Colombia,
the portfolio’s implementation background, and current policies and procedures, all of which are necessary
in providing helpful recommendations for improvement. The Mission would like to note formally that at
the time of the audit, the alternative development team was already in the midst of minor implementation
changes and broader reviews of strategic direction. The Mission is pleased that the audit team, through its
findings, validated many of the ongoing efforts to improve program implementation already being
undertaken by the Mission.

By way of responding to each recommendation, the following list of responses corresponds to the ten (10)
audit findings made in the subject report:

Recommendation No. 1:
Audit Recommendation: We recommend that USAID/Colombia require Associates in Rural Development
to develop an action plan to shorten the time it takes for implementation to begin.
Mission Response: The Audit Recommendation is confirmed by the Mission. The Management Decision
has been made to have Mission staff work with the contractor, Associates in Rural Development (ARD), to
develop and issue an updated project development and implementation manual for existing and future
activities. This plan will focus on the appropriate processes and timelines associated with project
development so as to reduce the amount of time required to initiate activities in the field. The new manual
will be included as part of the Project/Grants Manual of the two flagship implementers.

Recommendation No. 2:
Audit Recommendation: We recommend that USAID/Colombia establish guidelines on investment per
hectare of licit crops and ensure that the implementing partners adhere to those standards.
Mission Response: The Audit Recommendation is confirmed by the Mission. A Management Decision has
been made to establish written Mission guidelines to establish a range for investment amounts per hectare
of licit crops. This written guidance will be communicated to our partners and included in their
project/grants manuals.


                                                                                                          22
                                                                                            APPENDIX II



Recommendation No. 3:
Audit Recommendation: We recommend that USAID/Colombia enter into a formal verification agreement
and plan with Acción Social that specifically addresses the areas in which USAID is working and includes
a schedule of verification to be carried out by Acción Social and reported to USAID.
Mission Response: The Audit Recommendation is confirmed by the Mission. A Management Decision has
been made to negotiate, sign, and implement a formal verification protocol agreement with Acción Social
and/or other branches of the Government of Colombia. This agreement will address roles and
responsibilities, geographic coverage, guidelines and procedures governing the verification work, and
introduce a mechanism for creating and updating fluid verification schedules for all projects.

Recommendation No. 4:
Audit Recommendation: We recommend that USAID/Colombia (a) establish clear boundaries on the types
of infrastructure works that contribute to economic growth or meet community basic needs and therefore
would be permissible under the program and (b) provide this guidance to its implementing partners.
Mission Response: The Audit Recommendation is confirmed by the Mission. A Management Decision has
been made to create and disseminate guidance on the appropriate types of infrastructure works to be carried
out in communities through incorporation in the project/grants manuals of our partners.

Recommendation No. 5:
Audit Recommendation: We recommend that USAID/Colombia establish limits or standards on the
amounts that can be invested in each community on social infrastructure projects.
Mission Response: The Audit Recommendation is confirmed by the Mission. A Management Decision has
been made to establish written guidelines and limits on the amounts that can be invested in each community
on social infrastructure projects. This guidance will be added to the Project/Grants manuals of our partners.
However, Mission Management will reserve the right to waive these limits, because Mission flexibility in
determining the correct level of investment in each community is paramount to meeting the overall Agency
objectives within these activities.

Recommendation No. 6:
Audit Recommendation: We recommend USAID/Colombia establish guidelines on cost sharing
requirements.
Mission Response: The Audit Recommendation is confirmed by the Mission. A Management Decision has
been made to develop and disseminate cost sharing and contribution guidelines for USAID activities. This
guidance will follow the Agency-wide policies for cost sharing and host country contribution.

Recommendation No. 7:
Audit Recommendation: We recommend that USAID/Colombia require its Alternative Development
Office to periodically sample and verify its implementing partners’ data for completeness, accuracy, and
consistency.
Mission Response: The Audit Recommendation is confirmed by the Mission. A Management Decision has
been made to utilize the Agency and Mission Data Quality Assessment procedures to establish standardized
written sampling procedures for verification of implementing partners’ data. Sampling exercises will be
carried out and the results reported on a regular basis, following the written guidance established for this
sampling and verification effort.

Recommendation No. 8:
Audit Recommendation: We recommend that USAID/Colombia (a) ensure that performance indicators and
their corresponding targets are developed consistently among the various program documents; and (b)
modify implementing partner contracts to reflect the same indicators and targets.
Mission Response: The Audit Recommendation is confirmed by the Mission. A Management Decision has
been made to modify the written guidance for performance indicators and their corresponding targets to
ensure that they are consistent throughout the Mission Program and to ensure that this guidance is
incorporated into partners’ contracts, grants, and other agreements in a consistent and comprehensive
manner.




                                                                                                         23
                                                                                             APPENDIX II


Recommendation No. 9:
Audit Recommendation: We recommend that USAID/Colombia amend its contracts with ARD to include
more performance-based elements such as adding incentives for meeting goals, structuring payment based
on performance, or specify penalties or reductions in fee for not meeting results.
Mission Response: The Audit Recommendation is confirmed by the Mission. However, it should be noted
that the FAR does not allow for contractor penalties other than liquidated damages. This is difficult to
prove and could involve litigation. We could, however, reduce the contractor’s fixed fee if they do not
meet their targets. The amount of an equitable fee reduction would be negotiable. A Management
Decision has been made to incorporate the following incentives into the ARD contracts:
       1) Use of unilateral options to motivate performance: If ARD does not improve performance, we
            will not exercise the options. ADAM and MIDAS were just modified from five year contracts
            to three year contracts with two one-year options to extend. Past Performance Evaluations: We
            are currently preparing Contractor Performance Reports (CPRs) for year one of MIDAS and
            ADAM. These CPRs are important to motivate performance because they are in a central
            database accessible by any USAID Mission.
       2) When applicable, we will modify MIDAS and ADAM to firm-fix-price some deliverables.
            Generally, anything that can be accurately priced out will be firm-fixed-priced.

In future instruments, we will consider the following strategies to motivate performance of new contractors:
       1) Use of modular strategies: Rather than awarding mega contracts for a long term fixed period,
            we could award contracts in “segments”, making greater use of option periods. Future business
            would be dependent on successful contract performance. The downside of this approach is the
            increased workload on USAID staff due to more frequent procurement actions due to shorter
            award periods.
       2) Award multiple award IQCs: The IQC holders would have to compete for each task order
            issued. Again, future task orders would depend on good performance.

Recommendation No. 10:
Audit Recommendation: We recommend that USAID/Colombia reprogram excess obligations totaling
$18,018,502 to activities that are more urgent by entering into additional commitments and/or reallocating
funds among the sub-commitments/sub-obligations.
Mission Response: Although the Mission fully agrees with the spirit of this Audit Recommendation and
the need to avoid excess forward funding, newly-developed forecasts of the partners’ expenditure burn
rates show that all funds on hand and to be received in FY 2007 and FY 2008 for this project will be
needed in order to fund the operations of the related partners. Thus, no funds are to be re-programmed at
this time. If needed, the Mission can provide data to the RIG to support this decision. We request that this
audit recommendation be closed upon issuance of the audit report.

Conclusion:
Again, the Mission wishes to thank the RIG personnel for their contribution to Mission operations and
goals in connection with this audit. Upon issuance of the final Audit Report, the Mission will complete the
Management Decisions as stated above and will endeavor to close each of the Audit Recommendations as
early as possible.

Please do not hesitate to contact the Mission if you have any questions or concerns about the audit or this
response memo. We look forward to receiving the final audit report.




                                                                                                          24
U.S. Agency for International Development
        Office of Inspector General
        1300 Pennsylvania Ave, NW
          Washington, DC 20523
             Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
